               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-04240-60




    Combined Assessment Program 

             Review of the 

         White River Junction 

           VA Medical Center 

     White River Junction, Vermont 





February 6, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT



                                              Glossary
                 CAP            Combined Assessment Program
                 CEB            Clinical Executive Board
                 EHR            electronic health record
                 EOC            environment of care
                 facility       White River Junction VA Medical Center
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                        CAP Review of the White River Junction VA Medical Center, White River Junction, VT



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 9

  Coordination of Care ............................................................................................... 10

  Nurse Staffing ......................................................................................................... 11

  Pressure Ulcer Prevention and Management ......................................................... 12


Appendixes
  A. Facility Profile ....................................................................................................      14

  B. Strategic Analytics for Improvement and Learning ............................................                              15

  C. VISN Director Comments ..................................................................................                  18

  D. Facility Director Comments ...............................................................................                 19

  E. OIG Contact and Staff Acknowledgments .........................................................                            24

  F. Report Distribution .............................................................................................          25

  G. Endnotes ...........................................................................................................       26





VA OIG Office of Healthcare Inspections
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
December 2, 2013.

Review Results: The review covered six activities. We made no recommendations
in the following two activities:

 Environment of Care

 Coordination of Care

The facility’s reported accomplishments were the No Veteran Dies Alone program and
the tele-scheduling process for the Sensory/Physical Rehabilitation Service.

Recommendations: We made recommendations in the following four activities:
Quality Management: Consistently complete actions from peer reviews, and report them
to the Peer Review Committee. Consistently report Focused Professional Practice
Evaluation results for newly hired licensed independent practitioners to the Clinical
Executive Board. Revise the local observation bed policy to include all required
elements. Ensure the Operative and Invasive Procedure Committee meets monthly and
includes the Chief of Staff as a member. Require Blood Usage Review Committee
members from Surgery, Medicine, and Anesthesia Services to consistently attend
meetings.

Medication Management: Conduct and document patient learning assessments.

Nurse Staffing: Complete annual staffing plan reassessments timely. Ensure all
members of the facility and unit-based expert panels receive the required training prior
to the next annual staffing plan reassessment.

Pressure Ulcer Prevention and Management: Perform and document a patient skin
inspection and risk scale daily and at discharge, and develop interprofessional
treatment plans. Accurately document pressure ulcer stages, risk scale scores, and
wound improvement or deterioration, including wound characteristics, from the time of
admission to the time of discharge. Provide and document pressure ulcer education for
patients at risk for and with pressure ulcers and/or their caregivers.




VA OIG Office of Healthcare Inspections                                                            i
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 18–23, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                            ii
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following six activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
October 30, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment



VA OIG Office of Healthcare Inspections                                                            1
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT


Program Review of the White River Junction VA Medical Center, White River Junction,
Vermont, Report No. 11-02077-282, September 15, 2011).

During this review, we presented crime awareness briefings for 112 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
218 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

No Veteran Dies Alone – Compassionate Companions
The facility has two hospice suites, which offer home-like, comfortable environments for
patients at the end of life. To help ensure that veterans at the end of life die with dignity
and never alone, the facility instituted the No Veteran Dies Alone program. The
program uses trained volunteers to stay with patients in the hospice suites when no
family members or loved ones are available. Volunteers are known as “Compassionate
Companions” and receive 20 hours of training, which includes communication skills,
what to expect when a patient is dying, and the different stages of grief. The program
currently has 24 trained volunteers and has provided 101 hours of volunteer service to
patients in the facility’s hospice suites. In 2013, the No Veteran Dies Alone program
was recognized by the VISN 1 Network with a VA Integrity, Commitment, Advocacy,
Respect, and Excellence (I CARE) Award.

Sensory and Physical Rehabilitation Service Tele-Scheduling
A tele-scheduling system was instituted to expedite the process for patients making
appointments with the Sensory and Physical Rehabilitation Service. If a patient is at a
primary care provider visit, and the provider places a consult to the Sensory and
Physical Rehabilitation Service, the patient can immediately proceed to a video monitor
located outside the clinic room and contact the Sensory and Physical Rehabilitation
Service to set an appointment, ask questions, or get information. This eliminates the
need for the patient to go to the physical service location and allows the patient to
decide with the scheduler on an appropriate date and time for an appointment.
Previously, the elapsed time from when a provider placed a consult to when the patient
received an appointment was measured in days. The system has succeeded in
reducing the time to an average of 22 minutes.




VA OIG Office of Healthcare Inspections                                                            2
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                    Areas Reviewed                                         Findings
      There was a senior-level committee/group
      responsible for QM/performance improvement
      that met regularly.
       There was evidence that outlier data was
         acted upon.
       There was evidence that QM, patient
         safety, and systems redesign were
         integrated.
 X    The protected peer review process met              Six months of PRC meeting minutes reviewed:
      selected requirements:                              Of the three actions expected to be
       The PRC was chaired by the Chief of Staff           completed, two were not reported to the PRC.
         and included membership by applicable
         service chiefs.
       Actions from individual peer reviews were
         completed and reported to the PRC.
       The PRC submitted quarterly summary
         reports to the MEC.
       Unusual findings or patterns were
         discussed at the MEC.
 X    FPPEs for newly hired licensed independent         Seven profiles reviewed:
      practitioners were initiated, completed, and        Of the seven FPPEs completed, results of
      reported to the MEC.                                 two were not reported to the CEB.
NA    Specific telemedicine services met selected
      requirements:
       Services were properly approved.
       Services were provided and/or received by
         appropriately privileged staff.
       Professional practice evaluation information
         was available for review.




VA OIG Office of Healthcare Inspections                                                                     3
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT


NM              Areas Reviewed (continued)                                    Findings
 X    Observation bed use met selected                    The facility’s policy did not include how the
      requirements:                                        responsible service and provider are
       Local policy included necessary elements.          determined and that each observation patient
       Data regarding appropriateness of                  must have a focused goal for the period of
         observation bed usage was gathered.               observation.
       If conversions to acute admissions were
         consistently 30 percent or more,
         observation criteria and utilization were
         reassessed timely.
      Staff performed continuing stay reviews on at
      least 75 percent of patients in acute beds.
      The process to review resuscitation events
      met selected requirements:
       An interdisciplinary committee was
         responsible for reviewing episodes of care
         where resuscitation was attempted:
       Resuscitation event reviews included
         screening for clinical issues prior to events
         that may have contributed to the
         occurrence of the code.
       Data were collected that measured
         performance in responding to events.
 X    The surgical review process met selected            The Operative and Invasive Procedure
      requirements:                                        Committee only met 4 times over the past
       An interdisciplinary committee with                10 months.
         appropriate leadership and clinical
                                                         Four months of Operative and Invasive
         membership met monthly to review surgical
                                                         Procedure Committee meeting minutes
         processes and outcomes.
                                                         reviewed:
       All surgical deaths were reviewed.
                                                          The Chief of Staff was not a member.
       Additional data elements were routinely
         reviewed.
      Critical incidents reporting processes were
      appropriate.
      The process to review the quality of entries in
      the EHR met selected requirements:
       A committee was responsible to review
         EHR quality.
       Data were collected and analyzed at least
         quarterly.
       Reviews included data from most services
         and program areas.
      The policy for scanning non-VA care
      documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                     4
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT


NM            Areas Reviewed (continued)                                     Findings
 X    The process to review blood/transfusions           Twelve months of Blood Usage Review
      usage met selected requirements:                   Committee meeting minutes reviewed:
       A committee with appropriate clinical             The clinical representative from Medicine
        membership met at least quarterly to review        Service attended only two of five meetings,
        blood/transfusions usage.                          the clinical representative from Anesthesia
       Additional data elements were routinely            Service attended only three of five meetings,
        reviewed.                                          and no clinical representative from Surgical
                                                           Service attended meetings.
      Overall, if significant issues were identified,
      actions were taken and evaluated for
      effectiveness.
      Overall, senior managers were involved in
      performance improvement over the past
      12 months.
      Overall, the facility had a comprehensive,
      effective QM/performance improvement
      program over the past 12 months.
      The facility met any additional elements
      required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the PRC.

2. We recommended that processes be strengthened to ensure that FPPE results for newly
hired licensed independent practitioners are consistently reported to the CEB.

3. We recommended that the local observation bed policy be revised to include how the
responsible service and provider are determined and that each observation patient must have a
focused goal for the period of observation.

4. We recommended that the Operative and Invasive Procedure Committee meet monthly and
include the Chief of Staff as a member.

5. We recommended that processes be strengthened to ensure that Blood Usage Review
Committee members from Surgery, Medicine, and Anesthesia Services consistently attend
meetings.




VA OIG Office of Healthcare Inspections                                                                     5
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected two medical/surgical, the intensive care, and the non-acute behavioral health
inpatient units. We also inspected the emergency department, one primary care clinic, the
physical therapy/occupational therapy clinic, and the radiology department. Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
10 radiology employee training records. The table below shows the areas reviewed for this
topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM            Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                     6
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT


NM      Areas Reviewed for Radiology (continued)                              Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
 NA    MH EOC inspections were conducted every
       6 months.
 NA    Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 NA    MH unit staff, Multidisciplinary Safety
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.




VA OIG Office of Healthcare Inspections                                                                     7
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT


NM      Areas Reviewed for Acute MH (continued)                               Findings
NA     The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                     8
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 33 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
 X     Clinicians conducted inpatient learning            Five patients (15 percent) did not have
       assessments within 24 hours of admission or         documented learning assessments.
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

6. We recommended that processes be strengthened to ensure that patient learning
assessments are conducted and documented and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                     9
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 31 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                        Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    10
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on two inpatient units (acute medical/surgical and MH).5

We reviewed facility and unit-based expert panel documents and 14 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 2 randomly selected units—acute medical/surgical unit 1 West and chronic MH unit
Ground East—for 50 randomly selected days between October 1, 2012, and
September 30, 2013. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                     Findings
 X     The facility either implemented or reassessed      Twenty-four months passed between initial
       a nurse staffing methodology within the             implementation and the annual
       expected timeframes.                                reassessment.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
 X     Members of the expert panels completed the          Three of the eight members of the unit-based
       required training.                                   expert panels had not completed the required
                                                            training.
                                                           Two of the nine members of the facility expert
                                                            panel had not completed the required
                                                            training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

7. We recommended that processes be strengthened to ensure that nursing managers
complete annual staffing plan reassessments timely.

8. We recommended that all members of the facility and unit-based expert panels receive the
required training prior to the next annual staffing plan reassessment.




VA OIG Office of Healthcare Inspections                                                                    11
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 17 EHRs of patients with pressure ulcers (6 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
1 patient with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected one patient room. The table below shows the areas reviewed for this
topic.   The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were              Five of the applicable 15 EHRs did not
       performed upon transfer, change in condition,       contain documentation that skin inspections
       and discharge.                                      and risk scales were performed at discharge.
 X     Staff were generally consistent in                 In 4 of the applicable 16 EHRs, staff did not
       documenting location, stage, risk scale score,      consistently document pressure ulcer stages
       and date acquired.                                  and/or risk scale scores.
 X     Required activities were performed for             Seven of the 17 EHRs did not contain
       patients determined to be at risk for pressure      consistent documentation that staff performed
       ulcers and for patients with pressure ulcers.       daily skin inspections and daily risk scales.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
 X     For patients at risk for and with pressure         Three of the 17 EHRs contained no
       ulcers, interprofessional treatment plans were      documentation that interprofessional
       developed, interventions were recommended,          treatment plans were developed.
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                    12
                            CAP Review of the White River Junction VA Medical Center, White River Junction, VT


NM             Areas Reviewed (continued)                                     Findings
 X     The facility defined requirements for patient     Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and       education requirements reviewed:
       education on pressure ulcer prevention and         For 8 of the 17 patients, EHRs did not contain
       development was provided to those at risk for       evidence that education was provided.
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
 X     The facility complied with any additional         VHA policy reviewed:
       elements required by VHA or local policy.          Seven of the 17 EHRs contained inconsistent
                                                           documentation of wound characteristics
                                                           and/or whether the wound had improved or
                                                           deteriorated from the time of admission to the
                                                           time of discharge.

Recommendations

9. We recommended that processes be strengthened to ensure that acute care staff perform
and document a patient skin inspection and risk scale daily and at discharge and develop
interprofessional treatment plans and that compliance be monitored.

10. We recommended that processes be strengthened to ensure that acute care staff
accurately document pressure ulcer stages, risk scale scores, and wound improvement or
deterioration, including wound characteristics, from the time of admission to the time of
discharge.

11. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    13
                        CAP Review of the White River Junction VA Medical Center, White River Junction, VT
                                                                                              Appendix A


     Facility Profile (White River Junction/405) FY 2014 through
                            December 2013a
Type of Organization                                                         Secondary
Complexity Level                                                             2-Medium complexity
Affiliated/Non-Affiliated                                                    Affiliated
Total Medical Care Budget in Millions                                        $168.1
(September 2013)
Number of:
    Unique Patients                                                         15,804
    Outpatient Visits                                                       61,784
    Unique Employeesb                                                       800
Type and Number of Operating Beds
(November 2013):
    Hospital                                                                60
    Community Living Center                                                 N/A
    MH                                                                      14
Average Daily Census (November 2013):
    Hospital                                                                36
    Community Living Center                                                 N/A
    MH                                                                      12
Number of Community Based Outpatient Clinics                                 6
Location(s)/Station Number(s)                                                Bennington/405GA
                                                                             Brattleboro/405GC
                                                                             Colchester/405HA
                                                                             St. Johnsbury-Littleton/405HC
                                                                             Keene/405HE
                                                                             Rutland/405HF
VISN Number                                                                  1




a
    All data is for FY 2014 through December 2013 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  14
                                                       CAP Review of the White River Junction VA Medical Center, White River Junction, VT
                                                                                                                             Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                               15
                                              CAP Review of the White River Junction VA Medical Center, White River Junction, VT



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                      16
                                                                                  CAP Review of the White River Junction VA Medical Center, White River Junction, VT


                                                                         Metric Definitions
 Measure                       Definition                                                                          Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)   A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                             A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                          A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                         A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)      A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                       A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                   A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                              A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                      A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)   A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value
 PSI                           Patient safety indicator                                                            A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                    A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                      A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction             A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                               A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction           A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure              A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                             A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                 A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                      A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)          A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                          17
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT
                                                                                         Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:        January 22, 2014

          From:         Director, VA New England Healthcare System (10N1)

       Subject:         CAP Review of the White River Junction VA Medical
                        Center, White River Junction, VT

             To:        Director, Bedford Office of Healthcare Inspections (54BN)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       I have reviewed and concur with the action plans regarding the Combined
       Assessment Program Review, White River Junction Medical Center, 

       White River Junction, VT. 


       Sincerely, 


       (original signed by:)
       Michael Mayo-Smith, MD, MPH
       Network Director




VA OIG Office of Healthcare Inspections                                                           18
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT
                                                                                         Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:        January 22, 2014

          From:         Director, White River Junction VA Medical Center (405/00)

       Subject:         CAP Review of the White River Junction VA Medical
                        Center, White River Junction, VT

             To:        Director, VA New England Healthcare System (10N1)

       I have reviewed and concur with the action plans regarding the Combined
       Assessment Program Review, VA Medical Center, White River Junction,
       VT.


       (original signed by:)
       Deborah Amdur
       Medical Center Director




VA OIG Office of Healthcare Inspections                                                           19
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently completed and reported to the PRC.

Concur

Target date for completion: January 2, 2014

Facility response: Effective January 2014, the process for documenting minutes of the
Peer Review Committee includes identified action, action owner, and expected action
completion date. In addition, action items are tracked each meeting with actual closure
date documented in the respective meeting minutes.

Recommendation 2. We recommended that processes be strengthened to ensure that
FPPE results for newly hired licensed independent practitioners are consistently
reported to the CEB.

Concur

Target date for completion: January 24, 2014

Facility response: Effective January 2014, provider FPPE are tracked by the facility
Medical Staff Coordinator on a spreadsheet which is reviewed by the Professional
Standards Board at each meeting. The Medical Staff tracking document is used by the
Chairperson of the CEB to ensure timely communication to CEB and documentation in
CEB minutes.

Recommendation 3. We recommended that the local observation bed policy be
revised to include how the responsible service and provider are determined and that
each observation patient must have a focused goal for the period of observation.

Concur

Target date for completion: February 1, 2014

Facility response: The local facility policy on Observation Level of Care will be revised to
require identification of responsible service and provider, and to require that all patients
admitted to Observation level of care have a documented focused goal for the duration
of the observation admission.




VA OIG Office of Healthcare Inspections                                                           20
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT


Recommendation 4. We recommended that the Operative and Invasive Procedure
Committee meet monthly and include the Chief of Staff as a member.

Concur

Target date for completion: February 10, 2014

Facility response: The facility will ensure that the Operative and Invasive Procedure
Committee will meet monthly. The Chief of Staff will be a participating member.

Recommendation 5. We recommended that processes be strengthened to ensure that
Blood Usage Review Committee members from Surgery, Medicine, and Anesthesia
Services consistently attend meetings.

Concur

Target date for completion: February 1, 2014

Facility response: The facility Chief of Staff will communicate requirements for medical
staff participation in the Medical Staff Monitoring Committees, including Blood Usage
Committee.

Recommendation 6. We recommended that processes be strengthened to ensure that
patient learning assessments are conducted and documented and that compliance be
monitored.

Concur

Target date for completion: April 1, 2014

Facility response: The Associate Director of Nursing & Patient Care Services
(ADNPCS) directed action on this recommendation by direct communication to the
Associate Chief Nursing Services, Acute Care Programs and Chief, Education and
Knowledge Management Officer. WRJ will assure inpatient learning assessments are
completed and documented within 24 hours of admission per local policy. Compliance
with documentation is monitored by unit nurse managers with outliers being identified
and responsible parties individually reeducated in the process. Oversight of monitoring
will be provided by the Nursing Quality & Performance Council.

Recommendation 7. We recommended that processes be strengthened to ensure that
nursing managers complete annual staffing plan reassessments timely.

Concur

Target date for completion: April 1, 2014

Facility response: The fiscal year 2013 re-evaluation of staffing methodology will be
completed no later than April 1, 2014, for medical-surgical units, in-patient mental health



VA OIG Office of Healthcare Inspections                                                           21
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT


unit and intensive care unit. In subsequent years, the re-evaluation will be conducted
during the first quarter of the subsequent fiscal year.

Recommendation 8. We recommended that all members of the facility and unit-based
expert panels receive the required training prior to the next annual staffing plan
reassessment.

Concur

Target date for completion: February 1, 2014

Facility response: All staff assigned to the unit-based and facility-based expert panel for
staffing methodology will complete required training per VHA Directive 2010-034, no
later than February 1, 2014. Completion of this training will be tracked and verified by
the Associate Chief Nursing Services, Acute Care Programs, prior to the re-evaluation
of staffing methodology.

Recommendation 9. We recommended that processes be strengthened to ensure that
acute care staff perform and document a patient skin inspection and risk scale daily and
at discharge and develop interprofessional treatment plans and that compliance be
monitored.

Concur

Target date for completion: January 21, 2014

Facility response: The Associate Director of Nursing & Patient Care Services
(ADNPCS) directed action on this recommendation by direct communication to Nursing
Leadership and by an electronic Clinical Bulletin – Pressure Ulcer Prevention and
Management, to all RNs and LPNs. As of January 21, 2014, nurse managers have
instructed all appropriate staff who provide direct care in the in-patient setting that skin
inspections and risk assessments will be completed on admission, daily, and prior to
discharge, according to local policy. Interprofessional treatment plans are completed by
staff conducting the assessment, with the certified wound and ostomy nurse (CWON)
developing plans for patients with wound care consults. Oversight of monitoring will be
provided by the facility Nursing Quality and Performance Council.

Recommendation 10. We recommended that processes be strengthened to ensure
that acute care staff accurately document pressure ulcer stages, risk scale scores, and
wound improvement or deterioration, including wound characteristics, from the time of
admission to the time of discharge.

Concur

Target date for completion: April 1, 2014

Facility response: The Associate Director of Nursing & Patient Care Services
(ADNPCS) directed action on this recommendation by direct communication to Nursing


VA OIG Office of Healthcare Inspections                                                           22
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT


Leadership and by an electronic Clinical Bulletin – Pressure Ulcer Prevention and
Management, to all RNs and LPNs. As of January 21, 2014, nurse managers have
instructed all appropriate staff who provide direct care in the in-patient setting that
annual training on the Prevention and Management of Pressure Ulcers is now
mandatory. Simulation training will be provided by the certified wound ostomy nurse,
and will include assessment of pressure ulcer stages, risk scale scores and wound
improvement or deterioration, including wound characteristics.             Documentation
requirements per local policy will also be reviewed during this training. Nursing staff will
attend pressure ulcer training at nursing skills days (2014 session scheduled for
February 5, 12 and 19). Compliance with training is monitored by unit nurse managers
with appropriate personnel actions taken for staff not completing. In addition, the facility
wound ostomy nurse regularly conducts medical record quality assurance (QA) reviews
for compliance with facility standards for assessment and intervention as well as
inter-rater reliability.  Reports from VANOD (VA Nursing Outcomes Database)
identifying patients with missing assessments, Braden scores less than 12 and wound
care consults each prompt a QA review by the wound ostomy nurse. Oversight of
monitoring will be provided by the facility Nursing Quality and Performance Council.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: April 1, 2014

Facility response: The Associate Director of Nursing & Patient Care Services
(ADNPCS) directed action on this recommendation by direct communication to Nursing
Leadership and by an electronic Clinical Bulletin – Pressure Ulcer Prevention and
Management, to all RNs and LPNs. As of January 21, 2014, nurse managers have
instructed all appropriate staff who provide direct care in the in-patient setting that
pressure ulcer education will be provided and documented for patients at risk for and
with pressure ulcers (and/or their caregivers) according to local policy. Compliance with
documentation is monitored by unit nurse managers with outliers being identified and
responsible parties individually reeducated in the process. Oversight of monitoring will
be provided by the facility Nursing Quality and Performance Council. In addition, a
template progress note which will include a standardized format to document
interventions completed and education provided will be used for documentation in
CPRS.




VA OIG Office of Healthcare Inspections                                                           23
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT
                                                                                         Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Elaine Kahigian, RN, JD, Team Leader
Contributors            Annette Acosta, RN, MN
                        Frank Keslof, EMT, MHA
                        Jeanne Martin, PharmD
                        Claire McDonald, MPA
                        Will Nelson, Special Agent, Manchester Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Clarissa Reynolds, CNHA, MBA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                           24
                   CAP Review of the White River Junction VA Medical Center, White River Junction, VT
                                                                                         Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA New England Healthcare System (10N1)
Director, White River Junction VA Medical Center (405/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Patrick J. Leahy, Bernard Sanders
U.S. House of Representatives: Peter Welch


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                           25
                        CAP Review of the White River Junction VA Medical Center, White River Junction, VT
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                            26
                        CAP Review of the White River Junction VA Medical Center, White River Junction, VT



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
    November 2012.




VA OIG Office of Healthcare Inspections                                                                 27
